OIG Investigative Reports Press Release Fresno, CA., 07/12/2013 - Four Convicted For Participation In Student Aid Fraud Ring
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
EASTERN DISTRICT of CALIFORNIA
NEWS
United States Attorney Benjamin B. Wagner
Eastern District of California
Four Convicted For Participation In Student Aid Fraud Ring
FOR IMMEDIATE RELEASE
Docket #: 1-12-cr-00031-AWI
Friday, July 12, 2013
FRESNO, Calif.— United States Attorney Benjamin B. Wagner announced that Keith Lazell Woolridge, Sr., 41, of Fresno, California, was convicted on Thursday of  conspiracy to commit mail fraud, mail fraud,
and aggravated identity theft.  The guilty verdict was returned by a federal court jury in Fresno after a three day jury trial before United States District Judge Anthony W. Ishii.  The jury verdict followed
a guilty plea the morning of trial by Piersha Dwan Woolridge, 34, of Atwater, California, to conspiracy to commit mail fraud, mail fraud, and aggravated identity theft.  Earlier in the month, Yvette Maura
August, 41, of Atwater, California and Kim Rene Grey, 39, of Los Banos, California, pled guilty to charges arising out of the same scheme.  Keith Woolridge is scheduled to be sentenced October 31, 2013.
According to testimony presented at trial, Keith Woolridge participated in a conspiracy to defraud the United States Department of Education of federal student aid funds.  The conspirators enrolled
themselves and others as students in online courses at universities, even though they did not qualify for federal student aid and did not otherwise intend to attend college.  In one case, Keith Woolridge
stole the identity of a person to enroll her in college and collect student aid funds in her name, without the victim’s knowledge.
The case was the product of an investigation by the Department of Education, Office of Inspector General, and the U.S. Postal Inspection Service.  Assistant United States Attorneys Mark J. McKeon and
Grant B. Rabenn prosecuted the case.
The maximum statutory penalty for each count of conspiracy to commit mail fraud or mail fraud is twenty years in prison.  The penalty for aggravated identity theft is a mandatory two years in prison, to
be consecutive to any other sentence.  The actual sentence, however, will be determined at the discretion of the court after consideration of the Federal Sentencing Guidelines, which take into account a
number of factors.
####
Top
Printable view
Last Modified: 07/24/2013
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov